No.
In The Supreme Court Of The United States
Lee Mulcahy, PhD, pro se
V.
Aspen Pitkin County Housing Authority ("APCHA")

APPLICATION FOR EXTENSION OF TIME FOR PITON OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental corporation. None of the petitioners
has a parent corporation or shares held by a publicly traded company. The Defendant,
APCHA, is a quasi-judicial authority.

TO THE HONORABLE SONIA SOTOMAYOR, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE TENTH CIRCUIT:

Pursuant to Supreme Court Rules 15, 22, 30 and 33.2, Petitioner Lee Mulcahy, pro se,
respectfully requests a 60-day extension of time, up to and including May 8, 2020, to file a
petition of certiorari on the merits to the United States Supreme Court in order pending a
settlement. The Colorado Supreme Court denied my writ of certiorari on December 9,
2019. The jurisdiction of this Court was invoked under 28 U.S.C. ยง 1257(a), and the time
to file a timely petition of certiorari will expire without an extension on March 9, 2020.

1

This application is timely because it has been filed ten days prior to the date on which
the time for filing the reply brief is to expire.
The question presented is whether the procedure followed in the attempted
railroading of an Aspen artist and family out of the home they built themselves is
in violation of the 5th amendment of our Bill of Rights. (We've never been late on
taxes.)
Aspen, Colorado, is a town of 6788 residents. APCHA controls over 3000 "units"
in Pitkin County. Some "units" are 4 bedroom homes. With great power comes
great responsibility to exercise that power justly. Likewise, Aspen Skiing employs
nearly 4500 people. Ten years ago, I was passing out a union flyer when I was
interrupted, suspended and banned from all Aspen Skiing properties, including
public lands under their control. The Aspen Skiing ban is on appeal and is
currently before the justices of the Supreme Court. I am a dissident artist that
has exhibited worldwide. My artistic mentors are Jesus and Ai Weiwei.
Aspen Skiing is owned by a powerful billionaire, Lester Crown, who admitted to
bribing public officials. The local judge Chris Seldin never recused himself for bias
despite my multiple requests, was a member of Lester Crown's Society of Fellows
(annual membership $2500) for over a decade before taking the bench. This
eviction case is small town political retaliation. My family asked the Mayor to
meet with my 84 year old Mother, a widow, and the Sheriff of Pitkin County Joe
Disalvo for months. The Sheriff believes that it is not American that we are being
evicted for speaking out. I am a proud "guns and religion" tea party Republican

2

that believes in limited government. Critically, I lost in a landslide in the last
election to the Mayor of Aspen, Steve Skadron, a liberal "Big Government "
Democrat, who literally worked for Aspen Skico. My family gathered over 2000
signatures on a petition delivered to Aspen City Council "for a peaceful resolution
to allow a public hearing on our eviction" in front of city hail and our local grocery
store. The outpouring of love and support from the community signing was
overwhelming: Father John Hilton, rabbis, pastors, policemen, sheriff deputies,
artists, writers, journalists, teachers etc...all courageously signed despite the fear
prevalent in a company town.
4. We proposed a settlement to the Democratically controlled Aspen City Council
and the Board of County Commissioners that involved paying one of the newly
instituted fines (instead of eviction), performing 1500 community service hours &
paying all of APCHAs legal fees to be allowed to show compliance as an artist per
APCHA's rules. APCHA and the Democrats controlling it rejected this settlement.
APCHA has steadfastly refused to look at the records APCHA requested on
October 14, 2015, when my family returned from our clean water mission in Sotik,
Kenya - after I missed APCHA's deadline. I served as a Trustee for the Aspen
Historical Society for eight years until asked to resign after I tried to unionize
Aspen Skico workers. 5. Aspen was built around the arts. Artists have always been
a part of our community and this town was built around the arts.

3

On February 13, 2020, we proposed another settlement and are waiting to hear
back after being requested by Aspen City Council in minutes 42-46 here:
https://cityofaspen.granicus.com/MediaPlayet_php?view id=3&clip id=254
Accordingly, Pro Se petitioner respectfully prays that an order be entered
extending the time to file a petition for a writ of certiorari for 60 days, up to and
including May 8, 2020 during this pendency of settlement of settlement
negotiations which would make the filing moot.

AFFIDAVIT
I, Lee Mulcahy, swear before a notary the truth of the following:

The local newspaper stated this Monday: "According to the purchase contract, if
Mulcahy fails to allow APCHA possession of the home he built with his family, he
will be subject to eviction and will be required to pay $500 a day from Feb. 21 until
he leaves.... It will be up to the Pitkin County Sheriffs Office: to evict the Mulcahys."
I am an Eagle Scout and have volunteered thousands of hours for my community.
Our Sheriff gave me a hug outside of the library and told me this whole thing is a
"witch-hunt" . My paintings have been shown in museums in both Berlin and Nairobi and
galleries all over the world including Aspen, Carbondale, Prague and Beijing. I am not an
attorney.
Chicago billionaire Lester Crown controls one of America's largest fortunes. The New
York Times writes: "On the face of it, the issue seemed less than monumental: the

4

Pentagon was seeking to revoke a businessman's top-secret security clearance. The
significance lay in the nature of the evidence, the financial and political stakes involved
and the identity of the accused: 61-year-old Lester Crown, head of the billionaire Chicago
family that controls America's largest defense contractor, the General Dynamics
Corporation. Among those who appeared or offered affidavits in his behalf: Three
former Secretaries of State, two former Secretaries of Defense, and former Secretaries of
Treasury and Commerce. Henry Kissinger praised Crown's 'extraordinary probity.'
Robert McNamara had 'every confidence in his integrity.' David Packard, co-founder of
the Hewlett-Packard Company and head of a Presidential commission that had just
recommended sweeping changes in the organization of the Defense Department,
vouched for his 'trustworthiness.'" Before submitting this Court request, my 84 year old
Mom offered this solution to the Crown's attorneys:

Lester, Your Democratic city hall machine is still attempting to evict us from the
home we've built and to be clear, we have never been late on taxes. The local
judge that appears corrupt by all standards has appointed an out of town
corporate henchwoman from the infamous Greenwood Village (currently in the
10th circuit for blowing up an innocent family's home and refusing to pay for it) to
do "the Firm's" dirty work
As an 84 year old widow, I challenge you to a cross country ski off race. Why not
a Sandy MulcahylLester Crown ski race at the base of Aspen? But if I win, peace
reigns in Aspen and we get to keep the home we built ourselves and y'all would
then stop banning us from every function known to man here. If we win the
challenge, we look forward to being an active member of the community we love
and will support the efforts to help keep Aspen healthy. We want to express our
love in the philanthropic efforts and outreach programs here in Aspen. There are
many ways to involve ourselves in this community to leave a positive impact.
Currently we are in essence handcuffed from the community we love. Please
5

accept this challenge as a way to bring peace and harmony for our community as
a whole in the spirit of good will so that we as a family and community can heal
and put differences aside by settling these conflicts in a peaceful and dynamic
manner. Let's put Aspen on the map as a unique and best place to live in the USA.
Sandy Mulcahy

The American people are no longer partners of the government. We are
subjects.
The American dream is disappearing as little people lose faith in our
institutions and our justice system.
The politicization of our justice system continues unabated.
America was born out of an act of treason. While many in Aspen may not
agree with my libertarian politics or conservative anti-government beliefs,
the freedom to dissent is one that we all should cherish. Whether you are
an Occupy Wall Street protester or an anti-government Tea Partier in the
mountains, your right to protest and live in peace deserves the respect of
our government and all that live under it
District Judge Chris Seldin admitted in court that he was a member of the
Aspen Institute's Lester Crown Society of Fellows for over a decade.
Colorado's court of appeals wrote that "the judge was a member of the
Society of Fellows of the Aspen Institute periodically over a fourteen-year
(14) period...." Annual membership, which promises "access," begins at
$2500.00. To many Americans, an annual $2500 donation by an assistant
6

county attorney to an organization controlled by out of state billionaires for
over a decade would indicate "bias." Not according to our justice system:
It's just like the police. When the system investigates itself, nothing
happens. Furthermore, Lester's son, Jim, is President of the Aspen
Institute's board. Former President Obama describes Jim and his artist
wife, Paula, as his "best friends." Once Lester's allegedly captured judge
Chris Seldin was appointed in Aspen by the Democratic governor, the
Democratic machine that has held power for decades moved to have me
evicted from the home my family built with our own hands. Previously, the
Aspen Institute's attempted restraining order against me went to the
Colorado. Supreme Court and the Judge's beloved Aspen Institute lost.
When you sue a powerful billionaire in America, expect to be the defendant
on allegedly unrelated lawsuits. Colorado's history on judicial rulings for
labor activists has been well documented and frankly, sad. We are grateful
to God and the community for their love and support, especially the
Gorsuch's and Father John Hilton. Perhaps, local politician cum assistant
Pitkin County attorney cum judge Chris Seldin believes that in the United
States of America if you punish a whistleblower, you'll be rewarded.
Phillip Taft and Phillip Ross, both scholars of American labor violence
concluded that "there is no episode in American labor history in which
violence was as systematically used by employers as in the Colorado labor
war of 1903 and 1904." In these battles between labor (little people) and

7

capital, between miners and mine owners, the state government with one
exception sided with capital. Tyranny is ahistorical.
Tribalism in humans runs deep. My family volunteers our time and
resources with our church providing clean water wells and humanitarian
aid in Kenya where there are 42 tribes. Here in the United States, we have
two main tribes: the Republicans and the Democrats. The Democrats
control Aspen, its city council and board of county commissioners which
have blocked all hearings, settlements and mediation. The Mulcahy's are
Tea Party Republicans. The weaponized combination threatens the very
liberty that Americans fought a revolution to secure. American historian
Gary Gerstle warns that the fracture between Democrats and Republicans
over the proper reach of government constitutes an unbridgeable chasm
and may portend to the nation's decline.
Out of state owner of Aspen Ski Lester Crown and his Judge Chris Seldin
are Jewish. My family feels crucified by both. History shows tribalism is
destructive. I would note that my family in the spirit of community put my
Father's name on the first and second floors of the Jewish temple on Main
Street of Aspen in the spirit of community. Both local rabbis signed our
petition for a public hearing of over 2000 signatures to Aspen's city council
and Judge Seldin.
Justice Brandeis stated in his dissent in Olmstead v. United States,
"Decency, security and liberty alike demand that government officials shall

8

be subjected to the same rules of conduct that are commands to the
citizen. In a government of laws, the existence of the government will be
imperiled if it fails to observe the law scrupulously. If the government
becomes a lawbreaker, it breeds contempt for the law; it invites every man
to become a law unto himself; it invites anarchy."
To paraphrase Pulitzer Prize winning Glenn Greenwald: One of the
principal institutions devoted to monitoring and checking abuse of state
power is the political media_ The theory of a 'fourth estate' is to ensure
government transparency and provide a check on overreach. But that
check is only effective if journalists act adversarially against those who
wield political power. Instead, the Aspen Times has frequently abdicated
this role, being subservient to the government's interests, even amplifying,
rather than scrutinizing, its messages and carrying out its dirty work.

The owners of Aspen, the Crowns entertain Supreme Court justices in their
homes and tweet out their photos. No one wants to criticize this family. Even the
Crowns' neighbors are afraid now to ask the Secret Service parking overflow cars
from Crown political parties on THEIR private property. The Secret Service tells
them to get lost. Private property rights? The last bastion of a free society is the
ability to criticize our masters.
The Crowns have destroyed me legally. My family is being evicted from the home
we built over five years. I have nothing to lose. Dubbed the "Elvis of cultural
9

theory" and "the most dangerous philosopher in the West," researcher at the
Department of Philosophy of the University of Ljubljana Faculty of Arts,
International Director of the Birkbeck Institute for the Humanities of the
University of London., and also Global Eminent Scholar at Kyung Hee University
in Seoul, Slavoj Zizek stated: "In politics, we have authentic enemies. Everyone
should not be respected in politics and so on. Politics is a real struggle of life and
death." Recently, a man asked an Iowa judge to let him engage in a sword fight
with his ex-wife and her attorney in a trial by combat that will settle their ongoing
legal dispute.
This Court has the power to let the parties resolve our disputes on the field of
battle, legally. Trial by combat has never been explicitly banned or restricted as a
right in these United States. Mr. Jim Crown's General Dynamics has
manufactured the weapons that have caused the death of many innocent women
and children throughout the world. His "best friend," President Barack Hussein
()barna bombed seven Muslim countries in 2016 alone. See
httls://www.nbcnews.cominews/world/u-s-bombed-iraq-syria-pakistan-afghanista
n-libya-yemen-somalia-n704636
In jest, I requested this Court to restrict Mr. Crown from using any of his own
bombs, guns or tanks and restrict him to utilizing Japanese samurai swords in our
Court ordered trial by mortal combat. I believe I have met Skico's absurdity with
my own absurdity. Of course, I offered Mr. Crown the opportunity to choose any
of the many Chicago, Denver or Aspen attorneys of the three separate firms he has

10

chosen simultaneously to employ during the course of this lawsuit as his stand-in,
including the husband of the current assistant attorney of the City of Aspen or
even Ed Ramey, the free speech expert teaching at the University of Colorado, to
stand in for him.
Foremost, I am grateful that my amazing parents have shown me the way forward
in this time of struggle: loving our neighbors. My 84 year old Mom, known as
Mama Sandy, is leading 5 men on a charity mission to Kenya this month, despite
the coronavirus epidemic, detailed here:
https://www.aspentimes.com/news/mulcahy-familys-purpose-clean-water-is-a-nece
ssity-not-a-luxury-sponsored/ and
https://www.aspentimes.com/news/mulcahy-family-sets-out-on-another-clean-wate
r-mission-in-africa-sponsored/ and
https://wvv-w.youtube.com/watch?v=3tIllz2oaZE I praise God because at the time of
writing, the school for needy students with learning disabilities in Kipnosis outside of
Sotik has a "gusher" of a water well and two more public schools will receive clean water
wells, God willing.
CONCLUSION
Pro Se petitioner respectfully prays that an order be entered extending the time to
file a petition for a writ of certiorari for 60 days, up to and including May 8, 2020
during this pendency of settlement of settlement negotiations which would make
the filing moot.

11

